April 7, 1995


IG-1

INFORMATION: "Audit of the Department of Energy's Environmental
Molecular Sciences Laboratory"

The Secretary

BACKGROUND:

The Office of Energy Research (Energy Research) is in the process
of constructing an Environmental Molecular Sciences Laboratory at
Richland, Washington. This laboratory will conduct mostly basic
research to help solve the Department's environmental restoration
and waste management problems. The total cost of this facility,
including equipment, is estimated at $230 million with annual
operating costs of about $70 million.

Recently, there have been changes in activities of the
Department's laboratories caused by the end of the cold war.
Defense related research, for example, has decreased dramatically
at the Department's key laboratories such as Los Alamos and
Lawrence Livermore. Although research at the Department's
laboratories has been declining, Energy Research did not consider
using them as an alternative to constructing a new laboratory and
procuring equipment for it.

On May 16, 1994, the Office of Inspector General issued a
Management Alert recommending that Energy Research evaluate the
full range of available alternatives to find the most cost
effective facility. However, Energy Research disagreed with our
recommendations and on July 21, 1994, resumed construction at a
site adjacent to Battelle-Pacific Northwest Laboratories
(Battelle) in Richland, Washington.

DISCUSSION:

The audit showed that all practical alternatives were not
evaluated as required by Department Order 4700.1 before Energy
Research decided to proceed with the construction of the new
laboratory in Richland, Washington. Although Battelle had
conducted a site study in 1987, the study only considered sites
located in Richland. The proposal, and the Department's decision
to proceed with construction at Richland, was based on the new
laboratory's proximity to the Hanford site where about 50 percent
of the Nation's nuclear waste is stored. In addition, the
Department believed that since Battelle had submitted the
proposal, it should manage and operate the facility.

                                -2-


However, our audit showed that Energy Research should have
considered other alternatives. We found that actual material
from the waste stored at Hanford will not be used in the
research. Surrogate samples will be used instead. In addition,
the primary focus of the new laboratory will be basic research,
which will have multi-site application. Thus, the research will
not be site specific and directed only towards the problems at
Hanford. Further, other Department laboratories were performing
related research and had excess space which might have met the
proposed Research Laboratory's requirements.

Energy Research did not concur with the finding and
recommendations. Energy Research's response stated that the
Research Laboratory is to be a national user facility equipped
with state-of-the-art and first-of-a-kind equipment. The
response added that the use of existing facilities and equipment
would obviate the unique interactive and synergistic scientific
exploration capabilities of the proposed Research Laboratory.

We do not believe that the position taken by Energy Research
relieves the Department's program managers from their
responsibility to evaluate all available options before
proceeding with multi-million dollar construction projects.
Accordingly, Energy Research should determine whether existing
assets, other Department facilities, and National Laboratories,
could fulfill the mission of the proposed Research Laboratory.
Such an evaluation would be consistent with the Department's
commitment to deficit reduction and prudent spending, and would
maximize utilization of available resources.



                                           /s/

                                    John C. Layton
                                    Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      Director, Office of Energy Research

                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL




                            AUDIT OF THE

                       DEPARTMENT OF ENERGY'S

             ENVIRONMENTAL MOLECULAR SCIENCES LABORATORY
The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. As a consequence, this report is available
electronically through the Internet at the following alternative
addresses:

            Department of Energy Headquarters Gopher
                       gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate audit
report distribution. Your comments would be appreciated and can
be provided on the Customer Comment Form attached to the Audit
Report.




Report Number:  DOE/IG-0371              Western Regional Audit Office
Date of Issue:  April 7, 1995            Albuquerque, NM 87185D5400
                            AUDIT OF     THE
                      DEPARTMENT OF      ENERGY'S
            ENVIRONMENTAL MOLECULAR      SCIENCES LABORATORY


                              TABLE OF CONTENTS


                                                                    Page


                 SUMMARY . . . . . . . . . . . . . . . . . . .        1

PART I D         APPROACH AND OVERVIEW . . . . . . . . . . . .        3

                 Introduction     . . . . . . . . . . . . . . . .     3

                 Scope and Methodology . . . . . . . . . . . .        3

                 Background     . . . . . . . . . . . . . . . . .     4

                 Observations and Conclusions     . . . . . . . .     5
PART II D    FINDING AND RECOMMENDATIONS . . . . . . . . .    7

             Environmental Molecular Sciences
               Laboratory . . . . . . . . . . . . . . . .     7

PART III D   MANAGEMENT AND AUDITOR COMMENTS . . . . . . .   14
                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL
                        OFFICE OF AUDIT SERVICES

                           AUDIT OF THE
                      DEPARTMENT OF ENERGY'S
            ENVIRONMENTAL MOLECULAR SCIENCES LABORATORY


Audit Report Number:     DOE/IG-0371

                                SUMMARY

     The Department of Energy (Department) is responsible for
examining all options in acquiring major systems to ensure that
funds and existing facilities and equipment are used effectively.
The objective of the audit was to determine whether the Office of
Energy Research (Energy Research) had evaluated all practical
alternatives in building and equipping the proposed Environmental
Molecular Sciences Laboratory (Research Laboratory) which is
estimated to cost about $230 million.

     The audit showed that all practical alternatives were not
evaluated as required by Department Order 4700.1 before deciding
to proceed with the construction of a new Research Laboratory in
Richland, Washington. In 1988, Battelle-Pacific Northwest
Laboratories (Battelle) submitted an unsolicited proposal to the
Department for the construction of a new laboratory. Although a
site study had been conducted by Battelle in 1987, the study only
considered sites located in Richland. The proposal, and the
Department's decision to proceed with construction at Richland,
was based on the new laboratory's proximity to the Hanford site
where about 50 percent of the Nation's nuclear waste is stored.
In addition, the Department believed that since Battelle had
submitted the proposal, they should manage and operate the
facility.

    However, the audit indicated that other alternatives should
have been considered. We found that actual material from the
waste stored at Hanford will not be used in the research.
Surrogate samples will be used instead. In addition, the primary
focus of research at the new facility was changed from applied to
basic research, which will have multi-site application. Thus,
the research will not be site specific and directed only towards
the problems at Hanford. Further, other Department laboratories
were currently performing related research and had excess space
which might have met the proposed Research Laboratory's mission.

     By not evaluating alternatives, the Department may have
missed an opportunity to not only avoid spending a significant
amount of the $230 million, but also an opportunity to more
effectively utilize existing national laboratories and equipment.
We recommended, therefore, that Energy Research reevaluate the
project to determine if there are less costly but equally
effective alternatives to new construction and new equipment.
     The Office of Energy Research did not concur with the
finding and recommendations. Energy Research's response to our
finding and recommendations stated that the Research Laboratory
is to be a national user facility equipped with state-of-the-art
and first-of-a-kind equipment. The response added that the use
of existing facilities and equipment would obviate the unique
interactive and synergistic scientific exploration capabilities
of the proposed Research Laboratory.

     With the current concern about budget constraints, we,
however, believe it is imperative that the Department fully
evaluate all available options before proceeding with
multi-million dollar construction projects. Accordingly, Energy
Research should determine whether existing assets, other
Department facilities, and national laboratories, could fulfill
                                #=2
the mission of the proposed Research Laboratory. Such an
evaluation would be consistent with the Department's commitment
to deficit reduction and prudent spending, and would maximize
utilization of available resources.


                                    (Authenticated)
                                    Office of Inspector General
                               PART I

                        APPROACH AND OVERVIEW

INTRODUCTION

     A project can be designated a Major System Acquisition
because of its importance, size, complexity, or because its
dollar value exceeds $100 million. The Department of Energy
(Department) is responsible for evaluating all practical
alternatives in acquiring major systems to ensure that funds and
existing facilities and equipment are used effectively.

     The objective of the audit was to determine whether Energy
Research had evaluated all practical alternatives in building and
equipping the proposed Environmental Molecular Sciences
Laboratory (Research Laboratory) which is estimated to cost about
$230 million.

SCOPE AND METHODOLOGY

     The audit was conducted from January through August 1994 at
the Richland Operations Office and its management and operating
contractor Battelle-Pacific Northwest Laboratory (Battelle),
Richland, Washington; Lawrence Livermore National Laboratory,
Livermore, California; Sandia National Laboratory, Livermore,
California (Sandia-Livermore); Sandia National Laboratory,
Albuquerque, New Mexico; and, Los Alamos National Laboratory, Los
Alamos, New Mexico. Meetings were also held with the
Department's Office of Energy Research and Office of
Environmental Management in Germantown, Maryland, and Washington,
D.C.
     To accomplish the audit objective, we:

     o Reviewed Federal laws, Department Orders, and an Office
of Management and Budget Circular, and compared them to
        the acquisition strategy used for the Research Laboratory;

     o   Obtained and evaluated project management and engineering
         plans for building, equipping, and staffing the Research
         Laboratory;

     o   Interviewed key Department and contractor officials;

     o   Identified existing laboratories at other sites and
         evaluated their potential use for meeting the proposed
         Research Laboratory's mission; and,

     o   Reviewed the primary documents applicable to the
         acquisition of a major system: The Justification of
         Mission Need, the Project Management Plan, and the
         Project Plan.

     The audit was performed according to generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. We limited the review of internal controls to the
acquisition of a major system because operating controls for the
Research Laboratory had not yet been implemented. We did not
rely on any computer generated data to develop this report.
Since the review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed
at the time of our audit. An exit conference was held with the
Deputy Director, Office of Energy Research on February 10, 1995.

BACKGROUND

     The Department is in the process of constructing a new
facility to house the proposed Research Laboratory. This
laboratory will conduct mostly basic research but will also
perform some applied research to help solve the Department's
environmental restoration and waste management problems. The
plan for the laboratory calls for a 201,044 square foot facility;
this footage will include 61,610 net square feet of laboratory
space and about 10,000 square feet of computer space. The
remaining footage consists of corridors, office space, rest
rooms, mechanical space, a library, and an auditorium. The
facility will house about $140 million of research and computer
equipment. The total cost of this facility, including equipment,
is estimated at $230 million with annual operating costs of about
$70 million.

     On May 16, 1994, the Office of Inspector General issued a
Management Alert recommending that Energy Research evaluate the
full range of available alternatives to find the most cost
effective facility. However, Energy Research disagreed with our
recommendations and on July 21, 1994, resumed construction at a
site adjacent to Battelle in Richland, Washington.

     The mission of the new laboratory is to conduct basic
research to gain scientific knowledge and understanding of the
makeup of the wastes stored at Hanford and other Department
sites. Responsibility for project management initially came
under the Department's Office of Energy Research. In 1990,
the Secretary designated the project a Major System Acquisition
and gave the responsibility to the Department's Office of
Environmental Management. The transfer in management
responsibility was appropriate because 80 percent of the
laboratory's research would be applied to environmental cleanup.
In 1993, however, management responsibility was returned to
Energy Research because the laboratory's research emphasis had
returned to basic rather than applied research.

     On June 6, 1994, the Office of Environmental Management
signed a Memorandum of Understanding with the Office of
Energy Research. The Office of Energy Research will fund the
construction and operation of the Research Laboratory. The
Office of Environmental Management agreed to fund research and
equipment related to its mission. However, at the time of our
audit, the level of funding by the Office of Environmental
Management had not been determined.

OBSERVATIONS AND CONCLUSIONS

     Recently, there have been rapid changes in activities of the
Department's laboratories caused by the end of the cold war.
Defense related research, for example, has decreased dramatically
at three of the Department's key laboratories, Los Alamos
National Laboratory (Los Alamos), Sandia National Laboratories
(Sandia), and Lawrence Livermore National Laboratory (Livermore).
In response to these changes, the Secretary of Energy's Advisory
Board Task Force was established to examine the future
utilization of the laboratories for meeting national missions in
areas including energy and environmental research. The affected
laboratories, in turn, have been trying to replace their reduced
defense work.

     Although research at the Department's laboratories has been
declining, Energy Research did not consider using them as an
alternative to constructing a new laboratory and procuring
equipment for it. The Department believed that since the new
laboratory was based on a proposal by Battelle, and located close
to where most of the Department's high-level radioactive waste
was stored, its decision to locate the laboratory at Richland was
justified. Energy Research also supported the construction
because a new laboratory and equipment would provide an
interactive, synergistic, and campus-like research environment
for scientists.

     However, according to Battelle researchers, actual material
from the waste stored at Hanford will not be used in the
research. To conduct the research, scientists will produce
surrogate material, which can be studied at other laboratories.
Because scientists will not use the high-level waste at Hanford,
there is no unique or compelling reason to locate the laboratory
at Hanford. Therefore, Energy Research should have followed the
requirements of Department Order 4700.1 and evaluated all
alternatives to accomplish the research mission. Although we did
not perform a formal technical evaluation, our audit showed that
other laboratories, such as Livermore and Los Alamos, were
already performing related research. If Energy Research had
fully evaluated existing alternatives within the Department's
complex, it might have identified available, unused facilities
appropriate for its research mission. While structural
modifications might be necessary, the available alternatives may
cost less than the estimated $230 million for the Research
Laboratory. Further, such action could result in better
utilization of existing laboratories and equipment.

     We consider our finding on the lack of an evaluation of
alternatives to constructing the $230 million Research Laboratory
to be a material internal control weakness. The Department
should consider this matter when preparing the yearend assurance
memorandum on internal controls.

                              PART II

                    FINDING AND RECOMMENDATIONS

            Environmental Molecular Sciences Laboratory

FINDING

     Department officials are responsible for adhering to
Department Order 4700.1 which requires an evaluation of all
practical acquisition alternatives that will satisfy mission
needs. Instead of evaluating all practical alternatives,
however, management only considered constructing a new laboratory
in Richland, Washington. In addition, Energy Research officials
selected an unsolicited design concept from Battelle as the sole
concept for the new laboratory. According to Energy Research
officials, this occurred because they determined the laboratory
had to be in Richland, near the large quantities of stored
high-level radioactive waste. The Department cannot be certain
that a new laboratory in Richland is the most cost effective
alternative because Energy Research's acquisition strategy did
not include an evaluation of other alternatives. As a
consequence, the Department may have missed an opportunity to
more effectively utilize existing national laboratories and
equipment.


RECOMMENDATIONS

     We recommend that the Director, Office of Energy Research,
immediately:

     1. Assess all practical alternatives to determine if there
are less costly but effective alternatives to
constructing a new laboratory and procuring new
equipment and document the results of their final
decision.

     2. Ensure that the requirements of Department Order 4700.1
are followed on all future projects.


MANAGEMENT REACTION

     Management did not concur with the finding and did not agree
to implement the recommendations. Part III of this report
contains management and auditor comments.

                          DETAILS OF FINDING

     On August 15, 1990, the Secretary strengthened the Project
Management System by making all projects at or exceeding
$100 million Major System Acquisitions. Subsequently, on
March 18, 1991, the Research Laboratory was designated a Major
System Acquisition. As a Major System Acquisition, managers of
the Research Laboratory were required to follow the project
management policies in Department Order 4700.1 (Order).

     Attachment I-3 of the Order states that project managers are
required to explore alternatives to accomplish mission needs. To
ensure intended project benefits are achieved, project managers
must optimize competitive exploration of alternatives. The Order
further states that managers are not to conform mission needs or
goals to known systems that would foreclose consideration of
alternatives. Finally, the Order provides that project managers
should consider a broad base of firms and Federal laboratories
for potential sources of competitive system designs.

     Documentation of the project manager's consideration of
alternatives and support for the selection of the best system to
meet project needs is contained in the Justification of Mission
Need. This document is required by the Order before the start of
construction for any major system. Instructions on the
preparation of a Justification of Mission Need are contained in
Attachment II-1 of the Order which states that project management
must include information about the project alternatives, such as:

     o   The programmatic impact of not doing the project at all;

     o   The most appropriate alternatives;

     o   Reasons the options are being considered; and,

     o   Support justifying the selected option.

Justification of Mission Need and Alternatives

     Energy Research determined there was a need to provide basic
and applied research to solve the Department's environmental
restoration and waste management problems. However, it did not
evaluate all practical alternatives to accomplish the research.
Although there were existing capabilities to perform at least
portions of the proposed work, Energy Research determined that to
continue using decentralized staff and equipment would delay the
Department's ability to address its environmental and health
issues. Therefore, Energy Research determined the best method to
accomplish the mission need was through the consolidation of
research staff, equipment, and interdisciplinary science programs
in a single facility. This facility was to include laboratories
that met stringent vibration criteria; laboratories that provided
environmental conditions for sophisticated research equipment;
and, centrally located computers. Based on this determination,
Energy Research proposed to construct and equip the $230 million
Research Laboratory at Hanford based on an unsolicited design
concept submitted by Battelle. Energy Research did not evaluate
alternatives, such as whether there were existing resources at
other national laboratories.

     Although Energy Research prepared justifications for the
project, it did not explore the possibility of using alternatives
as required by the Order. In its May 23, 1989, Justification for
a New Start, Energy Research's required analysis of project
alternatives was limited to the following narrative, which we are
quoting in its entirety:

"Failure to approve this project in a timely fashion
will decisively inhibit DOE's ability to address
pressing national issues in the areas of environment
and health in a timely and cost effective manner. The
country simply cannot afford the $53 D $150 billion
estimated for cleanup. The most cost effective
approach is to invest in strategic scientific
facilities that can, through research and development,
reduce the cost of DOE hazardous and mixed waste site
remediation to achieve the desired goals. Five or six
years ago, most of the sophisticated instruments,
supercomputers, and techniques necessary to solve such
scientific problems at the molecular level were not
available. Today, however, a laboratory for
collaborative research in the molecular sciences is not
only possible, but is a necessity for the advancement
of molecular science at an internationally competitive
level and for the development of verifiable models of
environmental phenomena.

Consolidation of research staff, equipment, and
interdisciplinary basic science programs in a single
laboratory facility is the most cost effective option
and will also meet DOE requirements for improved
building use, efficiency, and energy conservation. Key
features that can best be provided by new facilities
and equipment include: (1) laboratories that meet
stringent vibration criteria, (2) laboratories that
provide proper environmental conditions for
sophisticated research equipment, (3) centrally located
computers that provide the computational power to meet
interactive computer experimental requirements, and (4)
proper facility configuration to function as a DOE user
facility."
     This same conclusion was repeated in a July 1992
Justification of Mission Need. In this document, the
alternatives section simply stated:

"The most cost effective approach is to invest in
strategic scientific facilities that can, through
research and development, reduce the cost of
remediation to achieve the desired goals. The
alternative is the continued use of decentralized
research staff, equipment and research programs among
the various laboratories throughout the country."

     From the outset of the project, the Department established
as a basic criteria that the laboratory would be located at
Richland. Documentation gathered during our audit indicates that
prior to the 1989 need justification, a decision had been made to
site the facility at Richland. This was reflected in a December
1987 study that showed that Richland was the only area being
considered for the facility. The study looked at only four
sites, all located in Richland. In addition, the original need
justification for the project clearly indicated that the decision
had been made to site the facility at Richland. The decision was
based on the need for a single facility to house the research, as
opposed to a fragmented research effort. In fact, the
alternatives section of the 1989 and 1992 need justification
identified the fragmented approach as an unacceptable
alternative. There was no discussion, in the alternatives
section, of the option to locate the single facility at other
sites or laboratories.

     Since 1989, significant changes have occurred at the
Department's major laboratories. The emphasis on weapons
production decreased and resolution of environmental problems
became a top priority. As a result, construction projects for
programs such as the Strategic Defense Initiative and other
defense related programs at Department laboratories were caught
in mid-stream and left without a mission. Despite these events,
the Department has not reevaluated its original decision to site
the facility at Richland, and has not considered existing
facilities at other laboratories as possible alternatives.

     In both justification documents cited above, the Department
stated that the only alternative to continuing with decentralized
staff and equipment was to construct a new laboratory at
Richland. The documents also listed Battelle's concept for
construction of a new laboratory at Richland as the best and only
alternative. As a result, no other sites or laboratories were
considered for the project in 1989, nor have any been considered
in the intervening period, as required by DOE Order 4700.1.

Reasons for Not Considering Alternatives

     Energy Research justified its limited evaluation of
alternatives by concluding that the Research Laboratory had to be
located near Richland because 50 percent of the nation's
radioactive and mixed waste is stored at Hanford. We did not
validate Energy Research's basic contention regarding the
location of radioactive and mixed waste. However, the results of
the audit disclosed that the Richland location was not critical
to the mission of the new laboratory. In fact, we determined
that the Research Laboratory's mission, conducting basic and
applied research to support the Department's cleanup effort,
could be met at locations other than Richland. Our conclusion
was based on the following:

     First, according to Battelle, the research will be done
in a laboratory environment using surrogate samples to simulate
radioactive materials, radioactive tracer materials, and actual
materials in dilute or small quantities. The highly radioactive
material stored in tanks at Hanford will not be introduced and
studied in the Research Laboratory. Since researchers will
use surrogate samples for radioactive waste research, the
criticality of locating the laboratory on or near the Hanford
site was questionable.

     Second, the project was originally approved as a Major
System Acquisition under the cognizance of the Office of
Environmental Management. The Office of Environmental
Management, in conjunction with Energy Research, justified the
Research Laboratory on the basis that its applied research
emphasis will benefit the cleanup of Hanford and other Department
sites. According to the Office of Environmental Management,
applied research needed to meet its environmental requirements
can be performed at any of the Department's laboratories. In
fact, when the need for the Research Laboratory was being
developed, the Office of Environmental Management suggested that
the research be performed at other Department laboratories.

Effect of Not Considering Alternatives

     By not evaluating alternatives, the Department may have
missed an opportunity to identify the most cost effective means
of achieving the goals of the project. Further, the possibility
of making more effective use of existing laboratories and
equipment may have been lost. Our review showed that the
Department had at least three unused facilities that were not
evaluated as potential alternatives to constructing the new
laboratory. Furthermore, our review showed that three national
laboratories were already performing molecular science research.
Details on the available alternatives that we identified follow.

     Unused Facilities. Although our audit was limited to four
locations, we identified three unused facilities that were not
considered as alternatives to constructing the new laboratory:

     o Integrated Manufacturing Technology Laboratory. This
laboratory located at Sandia-Livermore contains 90,000
square feet of unused space. The laboratory was built to
accommodate a Strategic Defense Initiative project which
was cancelled. It contains vibration isolation
facilities, video conferencing, and an analytical
chemistry laboratory. It is also equipped with X-ray
diffraction and X-ray fluorescence instruments which are
used in molecular science research; the same research
planned for the new laboratory at Richland.
     o "Star Wars" Complex. This facility located at Livermore
contains 377,600 square feet of unused space. It was
also built to accommodate a Strategic Defense Initiative
project which was cancelled. It contains over 600
laboratories, 100 offices, a 2 1/2 story open bay, and
was built at a cost of $137 million.

     o Fuels and Materials Examination Facility. This facility
located at Richland contains about 123,000 square feet
of unused space. Construction of the facility was
cancelled at about 70 percent completion and a cost of
$300 million. It contains analytical and metallography
laboratories, equipment for remote handling of
radioactive materials, and maintenance and
decontamination cells.

     We discussed the use of existing facilities with Energy
Research officials who believed that the facilities cannot be
used because the Research Laboratory requires over 61,000 square
feet of vibration free floor space. They stated that the
laboratory requires a specially designed floor that would have to
be retrofitted in an existing facility. According to Energy
Research officials, retrofitting such a large area would be
almost as expensive as building a new facility. In response to
our Management Alert, Richland and contractor personnel estimated
that $100 million was needed to retrofit the Fuels and Materials
Examination Facility. However, the audit disclosed that much of
the research equipment identified by Battelle as vibration
sensitive could be obtained with built-in vibration control
capability, thus negating the need for vibration free floors.
The use of this type of equipment had not been evaluated as an
alternative in any of the existing facilities.

     Ongoing and Planned Research. Lawrence Livermore, Los
Alamos and Sandia are all conducting molecular research directed
towards environmental restoration and waste management
technologies. For example:

     o Livermore is conducting research in molecular
spectroscopy, surface reaction measurements, molecular
cluster, atomic force microscopy, and surface analysis
and mapping.

     o Los Alamos is conducting research involving the
characterization of Hanford's high-level radioactive
waste, the synthesis of new compounds to cleanup
contaminated waste streams, and the structural analysis
of inorganic and organic compounds.

     o Sandia is conducting research in radiation separation for
the treatment of waste which involves designing molecular
structures to help separate unstable elements from
radioactive waste and molecules nanocluster, molecules
which improve catalysis and speed up chemical reactions.

    We made no scientific or technical judgment as to the
similarity of this work and the planned project. However,
scientists at the above facilities stated that the research they
were conducting was similar and in some cases may be duplicative
to that planned for the new Research Laboratory. As such, Energy
Research should have evaluated, as part of its selection process,
the benefit of participating in or supplementing existing
research programs.

     Available Equipment. While we found that some of the
research equipment planned for the new Research Laboratory was
available at some of the sites visited, most of the equipment
will have to be purchased regardless of location. Therefore, the
first-of-a-kind and one-of-a-kind equipment planned for the
Research Laboratory is not unique to Hanford, but could be
acquired by any site or location. However, plans for the new
Research Laboratory did include one expensive acquisition -- a
$13 million high performance computer system. We noted during
our audit that Los Alamos, Sandia-Livermore, and Livermore
already had the computer systems that could fulfill the needs of
the new Research Laboratory. However, since these sites were not
evaluated, neither was the possible use or benefits of the
existing computer system.

     In summary, unused facilities, ongoing research, and
available equipment, as discussed above, should have been
evaluated by the Department in planning this new facility. With
the current concern about budget constraints, we believe it is
imperative that the Department fully evaluate all available
options before proceeding with multi-million dollar construction
projects. Accordingly, Energy Research should determine whether
existing facilities at other national laboratories, could fulfill
the mission of the proposed Research Laboratory. Such an
evaluation would be consistent with the Department's commitment
to deficit reduction and prudent spending, and would maximize
utilization of available resources.
                             PART III

                  MANAGEMENT AND AUDITOR COMMENTS

     The Department of Energy, Office of Energy Research, did not
concur with our finding and recommendations in our May 16, 1994,
Management Alert or in our subsequent Official Draft Report
regarding the construction of the Environmental Molecular
Sciences Laboratory. Management's comments and our responses
follow.

Recommendation 1. Immediately assess all practical alternatives
to determine if there are less costly but equally effective
alternatives to new construction and procuring new equipment and
to document their final decision.

     Management Comments. The Director, Office of Energy
Research nonconcurred with our recommendation to assess
alternatives and stated that the Research Laboratory is needed
for its unique capability for interactive and synergistic
scientific exploration.
     Auditor Comments. Although selecting another alternative
could result in a reduction in interactive and synergistic
scientific exploration, environmental and molecular research
could be conducted at existing laboratories. The real question
is how much is such a capability worth and is this an appropriate
use of taxpayer funds given the budget crisis facing the
Government. Therefore, a full evaluation of the costs and
benefits of the various alternatives is needed.

Recommendation 2. Ensure that the requirements of Department
Order 4700.1 are followed on all future projects.

     Management Comments. Management stated that Energy Research
had always followed the requirements of the Order. Energy
Research further stated that the Office of Inspector General
concerns may be a problem with the Order rather than with the
Energy Research's management of the Research Laboratory.

     Auditor Comments. The Office of Inspector General believes
the Order requirements are clear. The Order requires the
evaluation of all alternatives before construction starts. The
evaluation of the alternatives and justification for the selected
alternative are to be submitted to the Acquisition Official for
further evaluation and approval. Energy Research, however, did
not evaluate alternatives. Therefore, the Acquisition Official
could not determine if the construction of the new Research
Laboratory at Richland was the best method to accomplish the
Department's mission.

     Additional Management and Auditor comments follow.

     Management Comments. The single concept designation is
indicated in the Justification for New Start dated May 23, 1989,
and approved July 25, 1989, by the Director, Office of Energy
Research, three Energy Systems Acquisition Advisory Board
Hearings, and numerous statements by past and present Secretaries
of Energy.

     Auditor Comments. Neither the 1989 Justification for New
Start, memoranda issued on the three Energy System Acquisition
Advisory Board Hearings, nor a report submitted to the
Congressional Defense Committees in response to Congressional
concerns, mentioned that the Research Laboratory was designated
or approved as a single concept.

     The Research Laboratory was approved as a major project by
an Energy Research Program Secretarial Officer. However, the
Acquisition Executive is required to approve pursuing a single
concept, according to the March 6, 1987, and June 2, 1992,
versions of Department Order 4700.1 for Major Projects and Major
System Acquisitions. Additionally, the Order also states: "Even
when pursuing a single concept, competition shall be employed in
development of the concept. The widest range of acquisition
alternatives to satisfy the mission need shall be considered."

     Management Comments. Department Order 4700.1 requires the
appropriate evaluation of alternatives to meet the Department's
mission needs. There were no existing facilities that met the
mission needs. This conclusion was documented in two independent
site evaluation reports. Alternatives to the single site concept
were considered, and it was determined that "consolidation of
research staff, equipment, and interdisciplinary basic science
programs in a single laboratory facility is the most cost
effective option..."

     Auditor Comments. The site evaluation reports were
conducted only in the Richland, Washington area and did not
consider the possibility of conducting the planned research
elsewhere. In addition, one of the site evaluations may not have
been entirely independent because it was conducted by Battelle.

     The Department did not conduct a study to determine if
the Research Laboratory mission could be met at other Department
laboratories. However, when the project was under the cognizance
of Environmental Management, the justification of mission
need stated that an alternative would be to continue using
decentralized research staff, equipment, and research programs
among the various laboratories throughout the country to meet the
mission of the Research Laboratory.

     Management Comments. "The reaffirmation of mission need, as
approved by the Acting Under Secretary of Energy, during the
February 28, 1992, Systems Acquisition Advisory Board, clearly
tied the Environmental and Molecular Research Laboratory to the
Hanford site..."

     Auditor Comments. We do not interpret the 1992 Energy
Systems Acquisition Advisory Board statement as requiring that
the Research Laboratory be located in Richland. It does,
however, recognize the magnitude of the problems at Hanford.
While the Hanford environmental restoration and waste management
problems must be addressed, the mission needs statement
recognizes that Department sites around the country share many,
if not all, of the same environmental challenges. Since Battelle
plans to use surrogate materials in the Research Laboratory,
there appears to be no technical requirement that the research be
done exclusively in Richland.

     Management Comments. As supported by numerous independent
peer reviews, the mission need clearly defines the requirement to
collocate the multiple disciplines and to create an interactive
environment for the researchers. In so doing, the user facility
environment allows an individual researcher's contribution to be
shared by others working on related problems, without dealing
with the hurdles created by time and distance caused by a
fractured program spread throughout the United States.

     Auditor Comments. While the peer reviews concluded that the
research was necessary, the scope of the reviews did not consider
the changing missions of the Department laboratories due to the
end of the cold war. Many existing laboratories were and still
are downsizing and may be available to pursue the research
planned for the Research Laboratory.
     In our review of three Department laboratories, we found
numerous examples of similar equipment and research efforts which
parallel those planned at the Research Laboratory. Also, a peer
review cautioned that coordination must take place in order not
to duplicate efforts of other Department programs, specifically
in the area of structural biology. Further, laboratory
scientists stated that frequent research collaborations occur
between laboratories. The use of distributed work environments
with network capabilities, such as Internet, overcomes the
hurdles created by time and distance.

     Management Comments. Energy Research stated that the Office
of Inspector General made erroneous and misleading judgments
because it lacked scientific and technical expertise on the
issues.

     Auditor Comments. The Office of Inspector General did not
make scientific or technical judgments during the course of this
audit. The issues raised in the report are based on the criteria
established by the Department for the management of Major System
Acquisitions, such as the Molecular Sciences Laboratory. We have
rendered no opinion on the technical merits of the mission of the
Laboratory, nor have we opined as to the ability of any existing
laboratory to successfully carryout this mission. Where
scientific or technical issues are discussed in the report, we
have relied upon scientists and researchers from Sandia, Los
Alamos, and Livermore. Department Order 4700.1 requires that
alternatives to accomplish mission goals be fully evaluated and
that reasons for selection and non-selection must be presented
before any construction starts. Energy Research did not evaluate
the use of existing Departmental facilities before deciding to
construct the new laboratory based on a Battelle concept. This
is the essence of the audit finding.

                 EXAMPLE OF CUSTOMER RESPONSE FORM

                                                     IG Report No. DOE/IG-0371

                      CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in improving
the usefulness of its products. We wish to make our reports as respon-
sive as possible to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are
applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

     2.   What additional information related to findings and recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

     Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

     When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member
of the Office of Inspector General, please contact Rob Jacques at (202)
586D3223.
